TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Management Oversight of the
                    Small Business/Self-Employed Division’s
                     Fuel Compliance Fleet Card Program
                           Should Be Strengthened



                                      September 27, 2011

                              Reference Number: 2011-10-125




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.
                                                     .


 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


MANAGEMENT OVERSIGHT OF THE                          indicative of fraud, waste, or abuse of the fleet
SMALL BUSINESS/SELF-EMPLOYED                         cards, TIGTA determined that the SB/SE
DIVISION’S FUEL COMPLIANCE FLEET                     Division did not retain adequate documentation
CARD PROGRAM SHOULD BE                               to justify that all transactions charged to the fleet
                                                     cards during the audit period were appropriate
STRENGTHENED
                                                     and legitimate.
                                                     Additionally, TIGTA established that in some
Highlights                                           cases (16 instances on 14 separate statements),
                                                     reconciliation and certification of the monthly
Final Report issued on                               Citibank statements were not conducted by
September 27, 2011                                   group managers and agents in accordance with
                                                     procedures. Finally, from October 1, 2001, until
Highlights of Reference Number: 2011-10-125          July 28, 2010, the Fleet Card Program did not
to the Internal Revenue Service Commissioner         have approval by the Secretary of the Treasury
for the Small Business/Self-Employed Division.       for home-to-work authority but used its fleet
                                                     vehicles for that purpose. As a result,
IMPACT ON TAXPAYERS                                  inappropriate charges were placed on fleet
                                                     cards.
Fleet cards are used to purchase fuel and minor
vehicle repairs and maintenance related to fleet     WHAT TIGTA RECOMMENDED
vehicles leased by the Internal Revenue Service
(IRS). The Small Business/Self-Employed              TIGTA recommended that the Commissioner,
(SB/SE) Division’s Fuel Compliance Fleet Card        SB/SE Division, develop and implement formal
Program (Fleet Card Program) lacks sufficient        fleet card policies, procedures, and
management oversight and internal controls to        management controls in compliance with Office
prevent, detect, and deter fraud, waste, and         of Management and Budget Circular A-123
abuse. Without adequate internal controls, IRS       Appendix B, Improving the Management of
management risks losing track of the vehicles        Government Charge Card Programs; the
and assigned fleet cards. Management also            Standards for Internal Control in the Federal
cannot be assured that fuel and repair charges       Government; and IRS vehicle inventory
incurred are only for official business and risks    procedures. In addition, these policies should
paying for inappropriate vehicle expenses.           prevent the use of fleet cards for home-to-work
                                                     transactions unless authority has been obtained
WHY TIGTA DID THE AUDIT                              in accordance with Treasury Directive 74-06 and
                                                     Federal regulations.
This review was initiated as part of the TIGTA
Fiscal Year 2010 Annual Audit Plan and               IRS management agreed with our
addresses the major management challenge of          recommendations. SB/SE Division Specialty
Erroneous and Improper Payments and Credits.         Tax Program staff plans to develop formal fleet
The overall objective was to determine whether       card policies, procedures, and management
the SB/SE Division has established effective         controls to enhance procedures not covered in
controls over the Fleet Card Program and             the interim guidance and ensure compliance
whether those controls are sufficient to identify    with Circular A-123, Appendix B; the Standards
and prevent errors and instances of fraud,           for Internal Control in the Federal Government;
waste, and abuse.                                    and IRS vehicle inventory procedures. In
                                                     addition, the IRS plans to include specific
WHAT TIGTA FOUND                                     guidance directly related to the home-to-work
IRS management’s oversight and internal              authorization requirements in its fleet card use
controls over the Fleet Card Program were not        policies and procedures in accordance with the
effective and did not ensure that all transactions   Treasury Directive 74-06 and Federal
were appropriate and legitimate. Although            regulations. The current home-to-work authority
TIGTA did not identify specific transactions         expires on July 15, 2013.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 27, 2011


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Management Oversight of the Small
                             Business/Self-Employed Division’s Fuel Compliance Fleet Card
                             Program Should Be Strengthened (Audit # 200910026)

 This report presents the results of our review of the Internal Revenue Service (IRS) Small
 Business/Self-Employed (SB/SE) Division’s Fuel Compliance Fleet Card Program. The overall
 objective of this review was to determine whether the SB/SE Division has established effective
 controls over its Fuel Compliance Fleet Card Program and whether those controls are sufficient
 to identify, address, and prevent errors and instances of fraud, waste, and abuse. This audit is
 one of a series of audits planned to assess how the IRS is managing its travel, fleet, and purchase
 cards. This audit was included in our Fiscal Year 2010 Annual Audit Plan and addresses the
 major management challenge of Erroneous and Improper Payments and Credits.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.
                                     Management Oversight of the Small Business/
                                      Self-Employed Division’s Fuel Compliance
                                     Fleet Card Program Should Be Strengthened




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Policies, Procedures, and Established Internal Controls
          Over the Fleet Card Program Are Weak. ...................................................... Page 4
                    Recommendation 1:........................................................ Page 10

          Fleet Card Charges Related to Home-to-Work Use
          Were Inappropriate Because the Associated Vehicles
          Were Driven Without the Proper Authorization ........................................... Page 10
                    Recommendation 2:........................................................ Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Outcome Measures............................................................... Page 19
          Appendix V – Management’s Response to the Draft Report ....................... Page 21
        Management Oversight of the Small Business/
         Self-Employed Division’s Fuel Compliance
        Fleet Card Program Should Be Strengthened




                 Abbreviations

IRS     Internal Revenue Service
ITAMS   Information Technology Assets Management System
MCC     Merchant Category Code
SB/SE   Small Business/Self-Employed
                                Management Oversight of the Small Business/
                                 Self-Employed Division’s Fuel Compliance
                                Fleet Card Program Should Be Strengthened




                                             Background

The Excise Tax Program in the Small Business/Self-Employed (SB/SE) Division’s Specialty
Programs Branch is the Internal Revenue Service’s (IRS) program responsible for fuel tax
compliance. Fuel Compliance Officers and Agents (hereafter referred to as agents) rely on
Government-leased fleet vehicles1 and fleet cards while conducting their official duties. Agents’
duties include site visits to retail and wholesale fuel facilities to enforce fuel excise tax laws.
There are currently nine field offices and three training groups in the Fuel Compliance Fleet
Card Program (Fleet Card Program) that use the fleet cards to purchase fuel and maintenance
related to the use of Government-leased fleet vehicles in the Excise Tax Program. As of
April 2010, there were 105 fleet vehicles assigned to the agents. These vehicles are to be used
for official business purposes only.2 Expenses related to the vehicles are charged to Government
fleet cards; specifically, fleet fuel cards are used to purchase fuel and minor vehicle repairs and
maintenance, while fleet repair cards are used for major fleet vehicle repairs and services.3
According to financial data we obtained from the IRS’s Integrated Financial System,4 the Fleet
Card Program had incurred over $500,000 in charges during our audit period of October 1, 2007,
through March 31, 2009.
The structure of the Fleet Card Program is different from the structure of the other credit card
programs used by the IRS, such as travel cards or purchase cards. For example, fleet fuel cards
are issued by Citibank to the Fleet Card Program and are embossed with the vehicle tag number
instead of an agent’s name. Fleet repair cards are assigned to individual Fuel Compliance group
managers for their group’s use.5 The Fuel Compliance Program Coordinator/Agency
Organization Program Coordinator (hereafter referred to as Program Coordinator) has the
oversight responsibility for the Fleet Card Program. Both the fleet fuel and fleet repair cards are
centrally billed accounts, meaning the individual agent or group manager is not responsible for
payment of the bill. Instead, the IRS makes payments to Citibank for all charges incurred on


1
  Fleet vehicles are either leased or purchased by the IRS and provided for official use by employees who require
transportation to perform their assigned duties.
2
  The use of Government vehicles is regulated by 31 U.S.C. Section (§) 1344, Passenger carrier use.
Section 1344(a) (1) specifies that “Funds available to a Federal agency, by appropriation or otherwise, may be
expended by the Federal agency for the maintenance, operation, or repair of any passenger carrier only to the extent
that such carrier is used to provide transportation for official purposes.”
3
  The SB/SE Division explained that the fleet cards can only be used for these types of maintenance expenses if they
are not covered by maintenance agreement plan provisions.
4
  The Integrated Financial System is an administrative accounting system used to input, track, and report financial
data.
5
  Fleet repair cards are embossed with the designated organizational group number at the time the fleet repair card
was assigned (e.g., “Truck-6307”).
                                                                                                            Page 1
                                Management Oversight of the Small Business/
                                 Self-Employed Division’s Fuel Compliance
                                Fleet Card Program Should Be Strengthened



either type of fleet card after the Program Coordinator ensures that group managers have
certified that the charges are proper and services were received.
Federal law and regulations provide guidance on the appropriate use of Government-provided
vehicles and restricts their use to the conduct of official business. IRS Government vehicles are
not to be used to transport employees between their homes and places of work, “home-to-work
transportation,” except as approved in advance by the Secretary of the Treasury.6 The vehicles
are intended to be used to transport employees between their office and field site locations,
which does not require preapproval. In some instances, it may be necessary or more efficient for
agents to use the vehicle for transportation from their home to their field site visits or from the
official field site to their home. In these specific situations, where this type of home-to-work
transportation is essential to conduct official business and will substantially increase the IRS’s
efficiency, approval must be obtained prior to using the vehicle for home-to-work transportation.
This review was performed at the IRS Fleet Motor Vehicle Program Office in
Saint Paul, Minnesota, and the SB/SE Division Excise Tax Field Offices in Decatur, Georgia;
Brockton, Massachusetts; and Buffalo, New York, during the period of August 2009 through
January 2011. The fieldwork and issuance of this report were delayed by an inspection on IRS
Fleet Vehicles7 being performed by the Treasury Inspector General for Tax Administration
Office of Inspections and Evaluations.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




6
  Treasury Directive 74-06 and 41 C.F.R. Subpart 102.5 require that authority for home-to-work transportation be
granted in writing by the Secretary of the Treasury.
7
  Inspection of the Internal Revenue Service’s Home-to-Work Programs (IE-10-01), dated June 6, 2011.
                                                                                                           Page 2
                                Management Oversight of the Small Business/
                                 Self-Employed Division’s Fuel Compliance
                                Fleet Card Program Should Be Strengthened




                                      Results of Review

IRS management’s oversight and internal controls over the Fleet Card Program were not
effective and did not ensure that all transactions were appropriate and legitimate. Although we
did not identify specific transactions indicative of fraud, waste, or abuse of the fleet cards, we
determined that the SB/SE Division did not retain adequate documentation to justify that all
transactions charged to the fleet cards during our audit period were appropriate and legitimate.
Additionally, we established that in some cases reconciliation and certification of the monthly
Citibank statements were not conducted by group managers and agents in accordance with
procedures. The reconciliation and certification of fleet card monthly statements must be
performed by the SB/SE Division to determine whether charges billed by Citibank are accurate.
To test controls over fleet cards, we selected a judgmental sample of monthly Citibank
statements and fleet vehicle inventory records. Our review of 229 fleet fuel card and 12 fleet
repair card statements did not reveal any charges or unusual transactions that appeared to be
questionable. However, we did find 16 instances, on 14 separate statements, for which
SB/SE Division fleet card statement reconciliation procedures were not followed. We found
instances of no managerial approval, no employee certification of charges, and missing receipts.
We reviewed the fleet vehicle data posted to the Information Technology Assets Management
System (ITAMS)8 as of October 5, 2009, and found discrepancies in 10 (11 percent) of the
89 vehicle records. In some cases, we found vehicles that were assigned to employees who were
no longer working at the IRS or who were working in another division within the IRS. IRS
procedures require that vehicle inventory records must be accurate and periodically reconciled so
that control over the vehicles and their assigned fleet cards is maintained. Without adequate
internal controls, IRS management risks losing track of the vehicles and assigned fleet cards.
Management also cannot be assured that fuel and repair charges incurred are for official business
and risks paying for inappropriate9 vehicle expenses.
Finally, from October 1, 2001, until July 28, 2010, the Fleet Card Program did not have approval
by the Secretary of the Treasury for home-to-work authority but used its fleet vehicles for that
purpose. As a result, all expenses related to the use of the fleet vehicles to transport agents to or
from their residence to their official place of duty were unauthorized transactions. IRS
management advised us that they believed they had approval for home-to-work use based on the
IRS delegation order received from IRS management in February 2001. However, they were

8
  The ITAMS is the IRS’s asset inventory system. For SB/SE Division fleet vehicles, the ITAMS contains
information such as the name of the employee who has been assigned the vehicle, a description of the vehicle, and
tag and vehicle identification numbers. At the end of audit fieldwork, auditors became aware that the ITAMS was
replaced by a new system called Knowledge Incident/Problem Service Asset Management.
9
  Inappropriate expenses are those which are not in compliance with the applicable guidance and regulations.
                                                                                                           Page 3
                                Management Oversight of the Small Business/
                                 Self-Employed Division’s Fuel Compliance
                                Fleet Card Program Should Be Strengthened



unable to determine the amount of vehicle usage during our audit period that related to its
unofficial home-to-work travel. Therefore, the SB/SE Division does not have the ability to
determine the amount of inappropriate charges incurred to fleet cards related to home-to-work
travel.

Policies, Procedures, and Established Internal Controls Over the
Fleet Card Program Are Weak

Informal guidance did not include procedures to identify fraud, waste, or abuse
The SB/SE Division is unable to determine whether charges placed on fleet cards properly reflect
the fleet vehicle usage to conduct official business. The informal and unapproved Fuel
Compliance Officers Fleet Card Guidance the SB/SE Division developed and distributed in
February 2009 does not require the group manager to conduct reasonableness reviews of
accounts to ensure transactions are only for official business. Reasonableness reviews include
performing an analysis of each agent’s scheduled fieldwork completed and comparing this
workload data against the vehicle mileage, fuel costs, vehicle miles per gallon data, employee
work plans, and leave schedules to determine whether the expenses charged to Government fleet
cards were appropriate, legitimate, and only for official business. In addition, these informal
procedures do not include other types of tests or analyses designed to detect fraud, waste, or
abuse in the use of fleet cards beyond their current practice of matching receipts for fleet vehicle
expenses to the monthly Citibank credit card statements.
Management Action: During and after our fieldwork, the IRS issued new guidance which
includes:
     •   Memorandum for the Fuel Compliance Territory, Interim Guidance on Mileage
         Log Policy for the Fuel Compliance Program, dated January 19, 2011.
         This memorandum issues interim guidance for completing mileage logs to record the use
         of the Government-leased trucks by Fuel Compliance Officers and Agents. The field
         personnel in the Fuel Compliance Program have been granted home-to-work authority
         under the field work designation in Treasury Directive 74-06, Home-to-Work
         Transportation Controls.10 This authority allows the field personnel to use the
         Government-leased vehicle to drive from their residence to various field locations.
         Adequate recordkeeping of the use of the vehicles by field employees with home-to-work

10
  The Department of the Treasury’s Treasury Directive (TD) 74-06, Home-to-Work Transportation Controls,
establishes the policy and sets forth responsibilities and reporting requirements concerning official use of a
Government passenger carrier between an employee’s home and place of employment. The Directive prescribes
how requests for the Secretary of the Treasury authorization for home-to-work use are to be completed, what they
should contain, and when they are due. Further, the Directive requires that employees maintain daily mileage logs
and other records necessary to establish that home-to-work transportation was used for official purposes.
                                                                                                           Page 4
                           Management Oversight of the Small Business/
                            Self-Employed Division’s Fuel Compliance
                           Fleet Card Program Should Be Strengthened



       authority must be maintained and available for audit. In addition to the requirements of
       Treasury Directive 74-06, other regulations require the Excise Tax Program to maintain
       records regarding fuel and other purchases using the fleet card. The mileage log recently
       distributed also serves as a record to comply with requirements.
   •   Memorandum for the Fuel Compliance Territory, Interim Guidance on Required
       Managerial Review of Mileage Log for the Fuel Compliance Program, dated
       May 11, 2011.
       This memorandum issues interim guidance for reviewing mileage logs and related
       records completed by Fuel Compliance Officers and Agents. The field personnel in the
       Fuel Compliance Program have been granted home-to-work authority under the field
       work designation in Treasury Directive 74-06. The Directive requires certain records be
       maintained and reviewed. Home-to-work authority is integral to the efficient operation
       of the Fuel Compliance Program. Following the procedures explained in this
       memorandum will enable the IRS to support the need for home-to-work authority in the
       future, encourage proper use of the vehicles operated under the home-to-work authority,
       and uncover potential fraud and misuse of the vehicle. There are two types of reviews
       the managers will perform each month—standard reviews and comprehensive reviews.
       Regardless of the type of review performed, the purpose of the review is to determine
       whether:
           1. The vehicle was used for official use only.
           2. The records provided are accurate and complete.
           3. The field employee purchased E-85 (alternative fuel), as directed.
While we did not test these new processes and procedures, we believe that the guidance is an
improvement over the informal guidance that was in place at the time of our audit testing.
However, we noted that the new guidance does not fully address all of the concerns identified
during our review (the following section describes deficiencies, control weaknesses, and risks we
identified with the Fleet Card Program). The guidance does not include fleet card policies,
procedures, and management controls to ensure fleet cards are used in compliance with the
Office of Management and Budget Circular A-123, Management’s Responsibility for Internal
Controls, Appendix B, Improving the Management of Government Charge Card Programs
(hereafter referred to as Circular A-123, Appendix B).

Fleet Card Program procedures are not consistently followed or effective to
ensure all charges are legitimate and approved
The SB/SE Division’s informal guidance requires receipts for charges placed on the fleet cards to
be reconciled to monthly Citibank statements to ensure accurate billing. To test controls over
fleet cards, we selected a judgmental sample of the monthly Citibank statements. We reviewed

                                                                                          Page 5
                                 Management Oversight of the Small Business/
                                  Self-Employed Division’s Fuel Compliance
                                 Fleet Card Program Should Be Strengthened



the SB/SE managers’ certification reviews of 229 fleet fuel card and 12 fleet repair card
statements and determined that the statements did not reveal any charges or unusual transactions
that appeared to be indicative of fraud, waste, or abuse based on the type of vendor. We did,
however, find 16 instances on 14 separate statements for which the SB/SE Division fleet card
statement reconciliation procedures were not followed, as Figure 1 shows.
                Figure 1: TIGTA’s Review of Small Business/Self-Employed
              Division’s Fleet Card Statement Managerial Certification Reviews
                     Fleet Fuel Card Statements                                            229
                     Fleet Repair Card Statements                                           12
                     Statements Reviewed                                                   241
                                               Exception Types
                    No Managerial Approval                                                   7
                    No Employee Certification                                                7
                    Missing Receipts and Forms                                               2
                    Number of Exceptions11                                                  16
                   Source: TIGTA analysis of a sample of Citibank fleet card statements.

The informal Fuel Compliance Officers Fleet Guidance states that an agent must compare
charges on the monthly statement with purchase receipts, sign the statement self-certifying that
the charges are for official use, and forward the statement and original receipts to the group
manager for approval of payment to Citibank. In the event original transaction receipts are
missing, the agent must prepare a missing receipt form and submit it to the group manager with
the statement. The group manager is responsible for reviewing and signing the statement
certifying the expenses were for official business and that goods and services were received and
for ensuring original receipts were submitted. Group managers forward the certified statements
with original receipts and any missing receipt forms to the Program Coordinator, who reviews
the transactions, ensures the documents received from the group managers are complete, and
reconciles the individual statements to the master statement received from Citibank before
authorizing payment.
IRS procedures also require that accurate and complete vehicle usage logs which include mileage
and fuel cost (including type and gallons purchased) be maintained. SB/SE Division
management did not establish internal control procedures to ensure that charges made to the fleet
cards reasonably reflect the usage of the Government vehicles to perform official business
activities. Also, the Program Coordinator stated that there is no system currently available to
obtain complete and accurate mileage data to conduct such an analysis.
In May 2009, the SB/SE Division discontinued the use of the automated system, Excise Fuel
Tax On-Line Network, which captured workload and vehicle usage type data, and implemented a


11
     Some monthly statements contained more than one exception.
                                                                                                 Page 6
                                 Management Oversight of the Small Business/
                                  Self-Employed Division’s Fuel Compliance
                                 Fleet Card Program Should Be Strengthened



new tracking system using a Global Positioning System. Both systems had the capability to
capture the mileage and fuel expenses for a vehicle in addition to the agent’s workload
information. However, SB/SE Division staff members were not consistent or diligent in
recording this information in the Excise Fuel Tax On-Line Network system, and the new Global
Positioning System equipment was either not installed or was not properly functioning in some
fleet vehicles. If the vehicle did not have a functioning Global Positioning System, agents were
instructed to record mileage and fuel expenses manually and submit the logs to their group
managers; however, mileage and fuel expenses were not consistently recorded on the manual
logs.
Due to the lack of available data and analysis, the SB/SE Division was unable to maintain
accurate and complete records as required by the Standards for Internal Control in the Federal
Government.12 Since accurate and complete mileage data was not available, group managers and
the Program Coordinator cannot readily determine whether vehicle fleet card expenses are
appropriate for agents’ workload. Neither the Program Coordinator nor the group managers
document any reviews to identify fraud, waste, and abuse or perform reviews of the fleet card
activities to ensure charges were appropriate and legitimate based on the official fieldwork
performed.
Without additional analysis of the agent’s workload data, the group managers can only determine
that the transaction on the statement matches the receipt provided. This limited control does not
determine whether the transaction was valid and required for official business. The Program
Coordinator’s reports on the Fleet Card Program performance issued to SB/SE Division
management were limited to an annual summary of fleet fuel and repair expenses, broken out by
organizational groups,13 and the submission of monthly updates to the SB/SE Division’s Strategy
and Finance Operational Reviews.14 Circular A-123, Appendix B, prescribes policies and
procedures to agencies regarding how to maintain internal controls that reduce the risk of fraud,
waste, and abuse in Government charge card programs and requires that agencies identify
specific risks with charge card programs and implement internal controls to mitigate these risks
to the greatest possible extent. Circular A-123, Appendix B, also requires charge card managing
officials (the Program Coordinator for the Fleet Card Program) to perform transaction analysis


12
   Standards for Internal Control in the Federal Government (GAO AIMD-00-21.3.1, dated November 1999).
13
   This report is intended to track the spending fluctuations of individual drivers from month to month.
14
   The Program Coordinator updates the monthly operational reviews by broadly providing business events within
the fleet vehicle program, some of which contain periodic entries specific to SB/SE Division fleet cards (e.g., the
May 2009 submission discussed the Government Accountability Office audit on the timely submission and
processing of IRS fleet card statement payments; the November 2009 submission noted difficulties that
SB/SE Division employees were having accessing the Citibank online Card Management System; and the June 2010
submission discussed the transfer of Citibank fleet cards to the Wright Express Fleet Card Program for General
Services Administration vehicles). However, we did not identify any policy or practice during our fieldwork that
demonstrated any efforts to identify the specific risks, schemes, or fraud indicators that fleet cards may be subject to
nor the development of any related mitigating management controls to prevent or detect potential fraud.
                                                                                                               Page 7
                                 Management Oversight of the Small Business/
                                  Self-Employed Division’s Fuel Compliance
                                 Fleet Card Program Should Be Strengthened



and program trends in managing costs and other relevant indicators of a credit card program’s
performance.
The SB/SE Division Program Coordinator cannot provide management any assurances of Fleet
Card Program performance without complete and accurate information. Additionally, these
weaknesses in internal controls could result in misuse and allow inappropriate charges to go
undetected, resulting in potential monetary losses to the Federal Government.
The types of analysis and reasonableness testing described above should be performed by the
Program Coordinator. Although the reconciliation of receipts to Citibank statements and
self-certification of expenses is a sound business approach, we believe that this practice alone is
not sufficient to identify instances of fraud, waste, or abuse in the Fleet Card Program and
provides no assurance that fleet card charges were used only for official business.
We obtained a data extract directly from Citibank containing all of the transactions for the Fleet
Card Program from September 1, 2007, through March 31, 2009. We performed data analysis
tests on over 9,000 expenses contained in this data to determine whether any of these
transactions contained a Merchant Category Code (MCC)15 that was not on the SB/SE Division
MCC inclusion template (authorized MCCs) for the Fleet Card Program. We found 29 purchase
transactions that contained MCCs that were not on the template and initially appeared to be
improper purchases. Of these 29 transactions, we determined 2 were transactions at a hotel that
should not have accepted the card, and both of these transactions had been credited back to the
card. The other 27 purchases were determined to be legitimate purchases at businesses that
supplied auto-related goods or services; however, these goods and services were not their
primary business and, therefore, the MCCs appeared to be for improper purchases.
Additionally, we performed an analysis reviewing limits contained on the fleet fuel and repair
cards. All active fleet fuel cards had credit limits of $2,500, and the fleet repair cards had credit
limits of $10,000. We determined these credit limits to be reasonable based on the needs of the
Fleet Card Program. We did, however, identify 2 fleet fuel cards that were reported stolen and
31 fleet fuel cards reported lost during our audit period. While the number of lost cards is
excessive, there were no indications of fraud, abuse, or improper transactions on any of the
accounts after they were reported lost.




15
  A MCC is a four-digit number used by the bankcard industry to classify suppliers into market segments. There
are approximately 600 MCCs that denote various types of business (e.g., 5541 Service Stations). The MCC is
assigned based on the supplier’s primary line of business. For example, if a supplier primarily sells tires, it may be
assigned MCC 5532 “Automotive Tire Stores.” Fleet card MCCs would limit the use of the card to vendors whose
primary line of business is supplying fuel and automotive repair goods and services.
                                                                                                               Page 8
                                 Management Oversight of the Small Business/
                                  Self-Employed Division’s Fuel Compliance
                                 Fleet Card Program Should Be Strengthened



Inaccurate fleet vehicle inventory information hinders management’s ability to
control the associated fleet cards
To test controls over fleet cards, we reviewed all 89 fleet vehicle records from the ITAMS as of
October 5, 2009, and found discrepancies in 10 (11 percent) of the 89 vehicle records.
Specifically, seven vehicles were assigned to employees that were no longer employed with the
IRS. These employees left the IRS between 1 and 11 months prior to October 2009.16 Three
other vehicles were assigned to employees who were working for other IRS divisions, making it
appear that someone other than an SB/SE Division employee was using a vehicle assigned to the
SB/SE Division. We discussed the discrepancies with the Program Coordinator and the ITAMS
system operator; they corrected the discrepancies in the inventory records. We verified that the
January 2010 inventory report contained no discrepancies.
Subsequently, we compared a May 18, 2010, vehicle inventory listing to the May 13, 2010,
ITAMS report and identified 10 vehicles that were not included in the ITAMS listing. Further,
we reviewed a Citibank report as of March 3, 2010, and determined there were charges on 6 of
the 10 fleet fuel cards associated with the vehicles not reported on the ITAMS. Since these cards
are assigned to vehicles, the IRS did not have an accurate inventory of the 10 fleet fuel cards.
We brought this to the attention of the Program Coordinator. We subsequently reviewed
inventory reports as of September 2010 and found that the inventory records for the 10 vehicles
had been updated in the ITAMS, correctly assigning the vehicles and fleet fuel cards. Since the
fleet fuel cards are assigned to a vehicle instead of the agent using the vehicle, proper and
accurate fleet vehicle inventory must be maintained to ensure an accurate inventory of the fleet
fuel cards.
The Standards for Internal Control in the Federal Government states that managers need reliable
and timely operational data to ensure the effective use of resources. In addition, these standards
require the ongoing validation of operational data to ensure data reliability. IRS guidance17 also
requires functions with motor vehicles to maintain custody and accountability for all vehicles
assigned to personnel through the use of accurate recordkeeping and reporting systems to ensure
the accountability of motor vehicle acquisition, use, operation, maintenance, and disposition.
The SB/SE Division established fleet vehicle inventory procedures to manage and safeguard its
fleet vehicles to minimize the risk of fraud, waste, and abuse; however, current controls do not
appear to be operating effectively. For example, group managers are required to immediately
notify the Program Coordinator when a vehicle is reassigned to a different agent. Additionally,
vehicle inventory procedures require the Program Coordinator to enter the changes into the IRS’s
ITAMS within 10 business days. However, the Program Coordinator does not have access to the
ITAMS. The Program Coordinator prepares and sends an inventory list to the ITAMS system
operator, who works in the IRS’s Agency-Wide Shared Services, Real Estate and Facilities

16
     The average time the employees had been separated from the IRS was 4 months.
17
     Internal Revenue Manual section 1.14.7, Motor Vehicle Management.
                                                                                           Page 9
                           Management Oversight of the Small Business/
                            Self-Employed Division’s Fuel Compliance
                           Fleet Card Program Should Be Strengthened



Management division. The Program Coordinator must rely on the ITAMS system operator to
timely update the inventory system and provide reports reflecting the updates. Vehicle inventory
records must be accurate and complete to ensure accountability over the associated fleet cards.

Recommendation
Recommendation 1: The Commissioner, SB/SE Division, should develop and implement
formal fleet card policies, procedures, and management controls to address the additional
deficiencies and control weaknesses identified in the audit that are not covered in the interim
guidance to ensure fleet cards are used in compliance with Circular A-123, Appendix B; the
Standards for Internal Control in the Federal Government; and IRS vehicle inventory
procedures. In addition, these policies should require periodic evaluations of the effectiveness of
the procedures and management controls put in place.
       Management’s Response: IRS management agreed with this recommendation.
       SB/SE Specialty Tax Program staff plan to develop formal fleet card policies, procedures,
       and management controls to enhance certification and reconciliation procedures not
       covered in the interim guidance and ensure compliance with Circular A-123,
       Appendix B; the Standards for Internal Control in the Federal Government; and IRS
       vehicle inventory procedures. In addition, the IRS will continue to require periodic
       evaluations of the effectiveness of the procedures and management controls established.

Fleet Card Charges Related to Home-to-Work Use Were Inappropriate
Because the Associated Vehicles Were Driven Without the Proper
Authorization
We determined that inappropriate charges were made to fleet cards because the SB/SE Division
did not have the proper authority from the Secretary of the Treasury, in accordance with
Treasury Directive 74-06, to use fleet vehicles and their associated fleet cards for home-to-work
travel. The agents used the fleet cards for a portion of their fleet vehicle usage that involved
unofficial travel between home and work. Agents operated the Government fleet vehicles to
transport themselves both between their residences and various locations to conduct official
business (i.e., field inspections) and between their residences and regular places of work (office).
The SB/SE Division did not have home-to-work authorization from the Secretary of the Treasury
from October 2001 until July 28, 2010, for this usage, therefore violating Department of the
Treasury regulations. As a result, all the transactions associated with this home-to-work travel
during this period were inappropriate charges.
Circular A-123, Appendix B, stipulates that a Government fleet card can be used to purchase
fuel, authorized repairs, parts, or services for Government-owned or leased vehicles, fueled



                                                                                            Page 10
                              Management Oversight of the Small Business/
                               Self-Employed Division’s Fuel Compliance
                              Fleet Card Program Should Be Strengthened



appliances and equipment, small marine craft, and aviation in support of official Government
business. Additionally, Federal regulations18 detail specific guidance for the use of Government
passenger carriers to transport employees between their homes and places of work. According to
the Federal regulations, the head of the agency (which for the IRS is the Secretary of the
Treasury) must make the determination to authorize home-to-work transportation using
Government vehicles. This determination should be completed before the employee is provided
with the home-to-work transportation, unless it is impracticable to do so.
Agents operated the fleet vehicles without the proper home-to-work authorization for over
8 years, from October 1, 2001, until July 28, 2010. In 2001, IRS management distributed a
Delegation Order19 providing authority to SB/SE Division management officials to designate
employees authorized to use Government vehicles between home and work. The IRS was not
authorized to issue this Delegation Order, so the issuance represents a violation of Federal
regulations. Subsequent to this delegation, IRS management requested authorization from the
Secretary of the Treasury. However, this request was never approved by the Secretary of the
Treasury. IRS management indicated they did not realize until September 2009 that the
authorization request was not approved. IRS management submitted a subsequent request for the
authorization that was approved by the Secretary of the Treasury on July 28, 2010, providing
home-to-work authority, but limiting the period to a 1-year term instead of the normal 2 years.
IRS management was required to resubmit a new home-to-work request prior to the expiration of
the approved authorization.
The IRS was unable to determine and did not have records of the use of home-to-work authority
prior to 2001. Since the IRS submitted a request to the Secretary of the Treasury for this
authority in 2001, we determined that our cutoff period for determining the lack of authorization
would be the beginning of Fiscal Year 2002 (October 1, 2001). As a result, all of the charges
related to home-to-work transportation for fuel, maintenance, and repairs during this period were
inappropriately charged on the fleet cards. In order to quantify these charges, we asked the IRS
to identify the vehicle usage and other data necessary and then determine any inappropriate
expenses charged to the fleet cards from September 1, 2007, through March 31, 2009.
SB/SE Division management could only provide an estimate of the total fleet card charges from
June 1, 2009, through May 31, 2010, as the necessary data for the requested period was not
maintained. The data provided by SB/SE Division management, totaling over $300,000,
included only the agents they determined periodically traveled from their residences to their
places of work from June 1, 2009, through May 31, 2010. Management estimated that only
1.7 percent (approximately $6,000) of the more than $300,000 charges during this period was
related to home-to-work transactions. We were unable to perform a verification of these


18
   Code of Federal Regulations Title 41: Public Contracts and Property Management, Part 102–5, Home-to-Work
Transportation.
19
   IRS Delegation Order Number 193, dated February 2, 2001.
                                                                                                     Page 11
                                Management Oversight of the Small Business/
                                 Self-Employed Division’s Fuel Compliance
                                Fleet Card Program Should Be Strengthened



amounts because management could not provide the source documentation used to calculate the
estimate. They advised us that the historical information (e.g., mileage for home-to-work travel)
necessary to determine the actual portion of the transactions that was inappropriate was not
maintained. As a result, SB/SE Division management does not have reasonable assurance that
the transactions related to home-to-work travel on the fleet cards during this period were
appropriate and cannot determine the amount and circumstances under which any inappropriate
charges were made.
The Treasury Inspector General for Tax Administration’s Office for Inspections and Evaluations
has issued a report regarding the IRS’s home-to-work authority and fleet vehicle policies,
including IRS Criminal Investigations and the Fleet Card Program.20 Because our audit was not
intended to evaluate controls over the home-to-work authority, we did not determine control
weaknesses between October 2001 and July 2009 or what controls the IRS would need to
establish to ensure the home-to-work authority is timely requested, in accordance with Treasury
Directive 74-06, before the authority expires in future years. Our findings and recommendations
are related specifically to the use of the SB/SE Division’s fleet cards and how the SB/SE
Division’s lack of authority for home-to-work transportation impacts fleet cards.

Recommendation
Recommendation 2: The Commissioner, SB/SE Division, should ensure that fleet card use
policies and procedures include specific guidance directly related to the home-to-work
authorization requirements in accordance with the Treasury Directive 74-06 and Federal
regulations. The guidance should prevent the use of the fleet cards for home-to-work
transactions unless authority has been obtained.
        Management’s Response: IRS management agreed with this recommendation. The
        SB/SE Specialty Tax Program will include specific guidance directly related to the
        home-to-work authorization requirements in its fleet card use policies and procedures in
        accordance with the Treasury Directive 74-06 and Federal regulations. The current
        SB/SE Specialty Tax Program home-to-work authority expires on July 15, 2013. Use of
        fleet cards for home-to-work transactions will be prevented after that date unless
        authority has been obtained.
        However, IRS management did not concur with the methodology used to calculate the
        second Reliability of Information outcome measure cited in this report. While they
        agreed the IRS did not obtain the proper authorization for home-to-work vehicle use, IRS
        management stated that their analysis of the mileage records maintained by fuel
        compliance officers for the period July 2010 through July 2011 showed that “commuting


20
 The Office of Inspections and Evaluations conducted this review at the request of the Assistant Secretary for
Management and Chief Financial Officer, Department of the Treasury.
                                                                                                          Page 12
                   Management Oversight of the Small Business/
                    Self-Employed Division’s Fuel Compliance
                   Fleet Card Program Should Be Strengthened



miles” accounted for less than 3 percent of total travel miles, which amounted to
approximately $84,000 in fleet card charges for the period October 2001 through
July 2010 for home-to-work commuting.
Office of Audit Comment: We understand that some portion of the approximately
$2.8 million in SB/SE Division fleet card transactions may have been appropriately spent
on travel between employees’ offices and field site locations of retail and wholesale fuel
facilities. However, SB/SE Division management did not maintain historical records
(e.g., mileage for home-to-work travel) and could not determine the actual portion of the
transactions that were related to home-to-work travel, and were therefore inappropriate.
In addition, SB/SE Division management’s estimate provided to us during the audit of
home-to-work travel for the 1-year period, June 1, 2009, through May 31, 2010, was not
reliable because management could not provide the source documentation used to
calculate the estimate. As a result, we continue to believe our outcome measure of
approximately $2.8 million is valid.




                                                                                    Page 13
                            Management Oversight of the Small Business/
                             Self-Employed Division’s Fuel Compliance
                            Fleet Card Program Should Be Strengthened



                                                                                     Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the SB/SE Division has established effective
controls over its Fuel Compliance Fleet Card Program (Fleet Card Program) and whether those
controls are sufficient to identify, address, and prevent errors and instances of fraud, waste, and
abuse. To accomplish our objective, we:
I.   Determined whether the SB/SE Division has established an effective process for
     controlling fleet cards and for identifying instances of waste, fraud, and abuse.
       A. Interviewed SB/SE Division managers and the Agency Organization Program
          Coordinator and identified the procedures the IRS follows to:
           1. Ensure the fleet cards are properly used.
           2. Identify and address instances of fleet card fraud, waste, or abuse.
       B. Reviewed the procedures established by the IRS and by the SB/SE Division to ensure
          accurate, current, and reliable data are maintained on fleet cards.
       C. Analyzed the results of the latest inventory performed on the fleet cards.
       D. Reviewed the controls established over fleet card use and determined whether
          employees are trained before they receive fleet cards and whether there is periodic
          refresher training.
       E. Determined actions taken by management to identify and resolve patterns of activity
          indicative of potential fraud, waste, or abuse.
       F. Selected a judgmental sample due to resource constraints and the extensive amount of
          documentation that would be required for a statistical sample. The judgmental
          sample included 229 reviewed and approved monthly fleet fuel card statements and
          12 fleet repair card statements dated September 8, 2008; December 8, 2008; and
          March 8, 2009. We reviewed the statements and identified any unusual trends or
          anomalies. In addition, we determined whether there were any questionable charges
          that might be indicative of fraud, waste, or abuse.
       G. Reviewed the MCC on the transaction data obtained directly from Citibank and
          determined whether all charges are restricted to items listed in IRS procedures and the
          Motor Vehicle Program Desk Guide.



                                                                                             Page 14
                                Management Oversight of the Small Business/
                                 Self-Employed Division’s Fuel Compliance
                                Fleet Card Program Should Be Strengthened



II.      Reviewed vehicle issuance and reporting procedures to verify that fleet vehicles are
         appropriately assigned and their use is appropriately authorized.
         A. Compared the current inventory of the fleet vehicles in the ITAMS1 to the Treasury
            Integrated Management Information System2 records and determined whether only
            current employees are assigned vehicles.
         B. Compared the current vehicle inventory with the inventory of fleet cards and
            determined that cards are only assigned to current vehicles and that cards
            corresponding to vehicles not in circulation are no longer in use.
         C. Reviewed authorization documents and determined whether the SB/SE Division
            currently has home-to-work authority for fleet vehicles.
III.     Reviewed fleet card activity from an independent validation of data received from
         Citibank and determined whether there were any indications of fraud, waste, or abuse.
         A. Obtained billing records from Citibank of all IRS fleet card activity for
            September 1, 2007, through March 31, 2009.
         B. Analyzed the data received from Citibank to identify patterns of activity indicative of
            potential fraud, waste, or abuse.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Office of Management and Budget
Circular A-123, Management’s Responsibility for Internal Controls, Appendix B, Improving the
Management of Government Charge Card Programs; Treasury Directive 74-06; and the
SB/SE Division’s policies, procedures, and practices established to manage the fleet card
program.




1
  The ITAMS is the IRS’s asset inventory system. For SB/SE Division fleet vehicles, the ITAMS contains
information such as the name of the employee who has been assigned the vehicle, a description of the vehicle, and
tag and vehicle identification numbers. At the end of audit fieldwork, auditors became aware that the ITAMS was
replaced by a new system called Knowledge Incident/Problem Service Asset Management.
2
  The Treasury Integrated Management Information System is an official automated personnel and payroll system
for storing and tracking all employee personnel and payroll data. It is outsourced to the United States Department of
Agriculture National Finance Center and managed by the Department of the Treasury.
                                                                                                           Page 15
                           Management Oversight of the Small Business/
                            Self-Employed Division’s Fuel Compliance
                           Fleet Card Program Should Be Strengthened



To assess these controls, we:
   •   Interviewed management and program participants to identify the internal controls
       established and practices followed to determine that all fleet cards and vehicles were used
       only for official business purposes.
   •   Analyzed relevant policies, laws, and regulations established for the management of
       Government charge card programs to determine whether controls in place were adequate
       and effective as required by relevant guidance.
   •   Reviewed vehicle inventory records and usage logs to determine whether effective
       controls were established and functioning as intended to control the use of the fleet
       vehicles and assigned fleet cards.
   •   Analyzed a sample of fleet card bank statements for questionable transactions and to
       verify that certification and payment processes were followed in accordance with
       applicable guidance.
   •   Analyzed data received from Citibank to determine whether fleet card activity contained
       instances or indicators of fraud, waste, or abuse.




                                                                                           Page 16
                         Management Oversight of the Small Business/
                          Self-Employed Division’s Fuel Compliance
                         Fleet Card Program Should Be Strengthened



                                                                           Appendix II


                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia Mrozowski, Director
John Ledford, Audit Manager
Michelle Philpott, Audit Manager
Doris Hynes, Acting Audit Manager
Susan Price, Lead Auditor
Ahmed Tobaa, Lead Auditor
Andrew Burns, Senior Auditor
Stephen Holmes, Auditor
Brett Thornock, Auditor




                                                                                  Page 17
                         Management Oversight of the Small Business/
                          Self-Employed Division’s Fuel Compliance
                         Fleet Card Program Should Be Strengthened



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Strategy and Finance, Small Business/Self-Employed Division SE:S:SF
Director, Specialty Programs, Small Business/Self-Employed Division SE:S:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Deputy Commissioner for Services and Enforcement SE




                                                                                 Page 18
                           Management Oversight of the Small Business/
                            Self-Employed Division’s Fuel Compliance
                           Fleet Card Program Should Be Strengthened



                                                                                  Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   •   Reliability of Information – Actual; 10 fleet fuel cards were assigned to 10 SB/SE
       Division fleet vehicles which were missing from the ITAMs asset inventory (see page 4).

Methodology Used to Measure the Reported Benefit:
We compared a May 18, 2010, vehicle inventory listing to the May 13, 2010, ITAMS report and
identified 10 vehicles that were not included in the ITAMS. Further, we reviewed a Citibank
report as of March 3, 2010, and determined there were charges on 6 of the 10 fleet fuel cards
associated to the vehicles not reported in the ITAMS. Since the cards are assigned to vehicles,
the IRS did not have an accurate inventory of the 10 fleet fuel cards. We brought this to the
attention of the Program Coordinator. We subsequently reviewed inventory reports as of
September 2010 and found that the inventory records for the 10 vehicles had been updated in the
ITAMS, correctly assigning the vehicles and fleet fuel cards. Since the fleet fuel cards are
assigned to a vehicle instead of the agent using the vehicle, proper and accurate fleet vehicle
inventory must be maintained to ensure an accurate inventory of the fleet fuel cards (see page 9).

Type and Value of Outcome Measure:
   •   Reliability of Information – Actual; $2,799,237 in SB/SE Division fleet card transactions
       that did not have adequate records available to quantify the portion of inappropriate
       charges from October 2001 until home-to-work authorization was received from the
       Secretary of the Treasury on July 28, 2010 (see page 10).

Methodology Used to Measure the Reported Benefit:
The SB/SE Division’s Fuel Compliance Fleet Card Program (Fleet Card Program) did not have
the proper authorization to allow agents to use the fleet vehicles for transportation between their
residences and places of regular work; hence, all the expenses related to home-to-work travel for
fuel, maintenance, and repairs were inappropriately charged on the fleet cards.
In order to quantify these expenses, we asked the SB/SE Division management to identify the
vehicle usage and other data necessary and then determine any inappropriate expenses charged to

                                                                                           Page 19
                           Management Oversight of the Small Business/
                            Self-Employed Division’s Fuel Compliance
                           Fleet Card Program Should Be Strengthened



the fleet cards during our audit period. Management provided an estimate of the cost for the past
year that included only the agents who periodically traveled from their residences to their places
of work. When the IRS provided the summary estimate, we requested the source documentation
to enable reasonable verification of the amount determined in the IRS estimate. The IRS could
not provide the source documentation used to calculate the estimate.
The IRS did not have adequate records available to quantify the portion of inappropriate
expenses from October 2001 until the home-to-work authorization was received on
July 28, 2010. Since we were unable to determine the portion of unauthorized expenses from the
inadequate records maintained by the IRS, we are reporting a reliability of information outcome
measure for all the expenses related to the program from the beginning of Fiscal Year 2002
(October 1, 2001) until July 28, 2010.
In order to determine this amount, we requested from the office of the Chief Financial Officer all
SB/SE Division fleet card expenses that were paid by the Beckley Finance Center from
October 1, 2001, until July 28, 2010. According to the data provided, the fleet fuel and repair
expenses that were paid on the fleet cards from October 1, 2001, until July 28, 2010, totaled
$2,799,237 million.




                                                                                          Page 20
         Management Oversight of the Small Business/
          Self-Employed Division’s Fuel Compliance
         Fleet Card Program Should Be Strengthened



                                                 Appendix V

Management’s Response to the Draft Report




                                                       Page 21
Management Oversight of the Small Business/
 Self-Employed Division’s Fuel Compliance
Fleet Card Program Should Be Strengthened




                                              Page 22
Management Oversight of the Small Business/
 Self-Employed Division’s Fuel Compliance
Fleet Card Program Should Be Strengthened




                                              Page 23
Management Oversight of the Small Business/
 Self-Employed Division’s Fuel Compliance
Fleet Card Program Should Be Strengthened




                                              Page 24
